                                                                 AUDIT




U.S. FISH AND WILDLIFE SERVICE
SPORT FISH RESTORATION PROGRAM GRANTS
Awarded to the State of Alabama, Department of
Conservation and Natural Resources, Marine Resources Division,
From October 1, 2007, Through September 30, 2009




Report No.: R-GR-FWS-0010-2010                               August 2010
                                                                                         August 12, 2010

                                          AUDIT REPORT
Memorandum

To:       Director
          U.S. Fish and Wildlife Service


From:     Suzanna I. Park
          Director of External Audits

Subject: Audit on U.S. Fish and Wildlife Service Sport Fish Restoration Program Grants
         Awarded to the State of Alabama, Department of Conservation and Natural Resources,
         Marine Resources Division, From October 1, 2007, Through September 30, 2009
         (No. R-GR-FWS-0010-2010)

        This report presents the results of our audit of costs claimed by the State of Alabama (the
State), Department of Conservation and Natural Resources (the Department), Marine Resources
Division (the Division), under grants awarded by the U.S. Fish and Wildlife Service (FWS).
FWS provided the grants to the State under the Sport Fish Restoration Program (the Program).
The audit included claims totaling approximately $1.6 million on six grants that were open
during State fiscal years (SFYs) ended September 30 of 2008 and 2009 (see Appendix 1). The
audit also covered the Division’s compliance with applicable laws, regulations, and FWS
guidelines, including those related to the collection and use of fishing license revenues and the
reporting of program income.

        We found that the Division complied, in general, with applicable grant accounting and
regulatory requirements; however, we questioned costs totaling $304,857 (Federal share),
because the Division (1) inequitably charged shared expenses between the Program grants and
other funding sources, (2) claimed payroll expenses on the grants that did not reflect the actual
time worked by two employees, (3) charged payroll costs to the grants that were not supported
by signed timesheets, and (4) claimed expenses on the grants that were obligated prior to the
grant periods. We also found that the Division made drawdowns of Federal funds even though it
had not incurred sufficient State expenditures to request reimbursement.

        We provided a draft report to FWS for a response. We summarized the Department and
FWS Region 4 responses, as well as our comments on the responses after the recommendations.
We list the status of each recommendation in Appendix 3.

     Please respond in writing to the findings and recommendations included in this report by
November 10, 2010. Your response should include information on actions taken or planned,

                           Office of Audits, Inspections, and Evaluations | Reston, VA
targeted completion dates, and titles of officials responsible for implementation. Please address
your response to:
                              Director of External Audits
                              U.S. Department of the Interior
                              Office of Inspector General
                              12030 Sunrise Valley Drive, Suite 230
                              Reston, VA 20191

       If you have any questions regarding this report, please contact the audit team leader, Mr.
Crist Chensvold, or me at 703–487–5345.

cc:   Regional Director, Region 4, U.S. Fish and Wildlife Service
Table of Contents
Introduction ............................................................................................................. 1
   Background ......................................................................................................... 1
   Objectives ............................................................................................................ 1
   Scope ................................................................................................................... 1
   Methodology ....................................................................................................... 1
   Prior Audit Coverage .......................................................................................... 2
Results of Audit ...................................................................................................... 3
   Audit Summary ................................................................................................... 3
   Findings and Recommendations ......................................................................... 3
Appendix 1 ............................................................................................................ 11
Appendix 2 ............................................................................................................ 12
Appendix 3 ............................................................................................................ 13
Introduction
Background
The Dingell-Johnson Sport Fish Restoration Act (the Act) 1 established the Sport
Fish Restoration Program. Under the Program, FWS provides grants to States to
restore, conserve, manage, and enhance their sport fish resources. The Act and
Federal regulations contain provisions and principles on eligible costs and allow
FWS to reimburse States up to 75 percent of the eligible costs incurred under the
grants. The Act also requires that fishing license revenues be used only for the
administration of the State’s fish and game agency. Finally, Federal regulations
and FWS guidance require States to account for any income they earn using grant
funds.

Objectives
Our audit objectives were to determine if the Division:

      •    Claimed the costs incurred under the Program grants in accordance with
           the Act and related regulations, FWS guidelines, and the grant agreements.
      •    Used State fishing license revenues solely for fish and wildlife program
           activities.
      •    Reported and used program income in accordance with Federal
           regulations.

Scope
Audit work included claims totaling approximately $1.6 million on the six grants
that were open during SFYs 2008 and 2009 (see Appendix 1). We report only on
those conditions that existed during this audit period. We performed our audit at
Department headquarters in Montgomery, AL, and Division headquarters in
Dauphin Island, AL, and visited six boat ramps, a mariculture center, and an
artificial reef (see Appendix 2). We performed this audit to supplement, not
replace, the audits required by the Single Audit Act Amendments of 1996 and by
Office of Management and Budget Circular A-133.

Methodology
We performed our audit in accordance with the “Government Auditing
Standards” issued by the Comptroller General of the United States. Those
standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We tested records and conducted
auditing procedures as necessary under the circumstances. We believe that the
evidence obtained from our tests and procedures provides a reasonable basis for
our findings and conclusions based on our audit objectives.

1
    16 U.S.C. § 777, as amended.


                                                                                   1
Our tests and procedures included:

   •   Examining the evidence that supports selected expenditures charged to the
       grants by the Division.
   •   Reviewing transactions related to purchases, direct costs, drawdowns of
       reimbursements, in-kind contributions, and program income.
   •   Interviewing Division employees to ensure that personnel costs charged to
       the grants were supportable.
   •   Conducting site visits to inspect equipment and other property.
   •   Determining whether the Division used fishing license revenues solely for
       administration of the Division.
   •   Determining whether the State passed required legislation assenting to the
       provisions of the Act.

We also identified the internal controls over transactions recorded in the labor and
license fee accounting systems and tested their operation and reliability. Based on
the results of initial assessments, we assigned a level of risk to these systems and
selected a judgmental sample of transactions recorded in these systems for testing.
We did not project the results of the tests to the total population of recorded
transactions or evaluate the economy, efficiency, or effectiveness of the
Division’s operations.

Prior Audit Coverage
On September 7, 2005, we issued “Final Audit Report on the U.S. Fish and
Wildlife Service Federal Assistance Grants Administered by the State of
Alabama, Department of Conservation and Natural Resources, Wildlife and
Freshwater Fisheries Division and Marine Resources Division, from October 1,
2002, through September 30, 2004” (No. R-GR-FWS-0002-2005). This report
contained no recommendations related to the Marine Resources Division.

We also reviewed Alabama’s Comprehensive Annual Financial Report and Single
Audit Report for SFY 2008. Neither of these reports contained any findings that
would directly impact the Program grants. In addition, we reviewed the Alabama
Department of Examiners of Public Accounts’ audit of the Department, issued on
November 27, 2009. This audit covered the Department’s compliance with
various State laws from October 1, 2006, to September 30, 2008. None of the
findings from this report directly related to the Marine Resources Division.




                                                                                  2
Results of Audit
Audit Summary
We found that the Division complied, in general, with applicable grant agreement
provisions and requirements of the Act, regulations, and FWS guidance. We
identified, however, several conditions that resulted in the findings listed below,
including questioned costs totaling $304,857. We discuss the findings in more
detail in the Findings and Recommendations section.

Questioned Costs. We questioned $304,857 in costs claimed on six grants
because the Division (1) inequitably charged shared expenses between the
Program grants and other funding sources, (2) claimed payroll expenses that did
not reflect the actual time worked by two employees, (3) charged payroll costs to
the grants that were not supported by signed timesheets, and (4) claimed expenses
that were obligated prior to the grant periods.

Excess Drawdowns of Federal Funds. The Division made drawdowns of
Federal funds even though it had not incurred sufficient State expenditures to
request reimbursement.

Findings and Recommendations
A. Questioned Costs — $304,857

1. Inequitably Allocated Expenses — $221,148

The Division received funding from a variety of sources in SFYs 2008 and 2009,
including license revenues, Program grants, and other Federal grants. Division
officials, however, charged transactions to the Program grants that also benefitted
non-Program projects, including expenses for electricity, telecommunications,
vehicle maintenance, building repairs, and sanitation services. Since we could not
determine the portion of those costs attributable to the Program grants, we
questioned all such expenses charged to Grants F-51-21 and F-51-22, for grant
coordination and administration; F-52-18 and F-52-19, for boating access
programs; and F-101-15 and F-101-16, for enhancement of recreational fishing.

According to the Code of Federal Regulations (CFR), in 2 CFR § 225, Appendix
A, subsections C.1.a, b, and j, allowable costs must be necessary and reasonable,
be allocable to the award only if they provide a benefit to the grant, and be
adequately supported.

This issue occurred because the Division did not have a methodology to equitably
charge shared expenses among all the projects that benefit from those costs. As a
result, we are questioning a total of $221,148 in costs (Federal share), as indicated
in the following table.


                                                                                    3
                       Inequitably Allocated Expenses
                Grant        Total Exceptions    Federal Share
               F-51-21             $6,349             $4,762
               F-51-22              5,733              4,300
               F-52-18             34,350             25,763
               F-52-19             19,121             14,341
               F-101-15           111,522             83,642
               F-101-16           117,787             88,340
               Total            $294,862           $221,148

Recommendations

We recommend that FWS:

    1. Resolve the unsupported questioned costs totaling $221,148.

    2. Ensure the Division develops a method to equitably charge shared
       expenses to all projects that benefit from those costs.


Division Response
The Division did not concur with the amount of unsupported questioned costs, but
provided neither a rationale for this position nor further documentation to support
any of the questioned costs. Nonetheless, the Division agreed to develop a method
to equitably allocate costs in its corrective action plan.

FWS Response
FWS regional officials concurred with the finding and recommendations.

OIG Comments
Based on the FWS response, additional information is needed in the corrective
action plan, including:

   •   The specific action(s) taken or planned to address the recommendations.
   •   Targeted completion date.
   •   Titles of officials responsible for implementing the actions taken or
       planned.
   •   Verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Division.

2. Unsupported Payroll Charges — $72,597

Division employees complete personnel activity reports (similar to timesheets)
showing the number of hours they work on various projects, and the Division
charges payroll expenses to the Program grants based on these reports. We
determined that an administrative support assistant and an accountant submitted

                                                                                  4
activity reports that did not reflect the actual time they worked on Program
activities. In SFYs 2008 and 2009, the administrative support assistant used a
predetermined percentage to distribute her work hours between Grants F-101-15
and F-101-16 and non-Program activities. Furthermore, the accountant charged all
of his time in SFY 2009 to Grant F-51-22, even though he also performed work
outside the scope of that grant.

The CFR outlines cost principles that States must follow when compensating
employees for work performed under Federal awards. According to 2 CFR § 225,
Appendix B, subsection 8.h(4), “where employees work on multiple activities or
cost objectives, a distribution of their salaries or wages will be supported by
personnel activity reports.” In addition, 2 CFR § 225, Appendix B, subsection
8.h(5)(e), notes that budget estimates or other distribution percentages determined
before the services are performed do not qualify as support for charges to Federal
awards.

This problem arose because Division management did not adequately review the
administrative support assistant’s and the accountant’s activity reports.
Furthermore, the Division did not have policies and procedures in place to ensure
that payroll expenses absorbed by Federal grants were based on the actual number
of hours employees worked on associated activities. Since the Department was
reimbursed for work unrelated to sport fish restoration, we are questioning a total
of $72,597 in unsupported costs (Federal share), as indicated in the following
table.
                          Unsupported Payroll Costs
                Grant        Total Exceptions    Federal Share
               F-51-22            $54,224            $40,668
               F-101-15            19,763             14,822
               F-101-16            22,809             17,107
               Total             $96,796            $72,597

Recommendations

We recommend that FWS:

    1. Resolve the unsupported questioned costs totaling $72,597.

    2. Require the Division to implement policies and procedures to ensure
       payroll expenses are supported by documentation of the actual activity
       of each employee.




                                                                                  5
Division Response
The Division did not concur with the amount of unsupported questioned costs, but
provided neither a rationale for this position nor further documentation to support
any of the questioned costs. Nonetheless, the Division agreed to identify a
procedure to address the second recommendation in its corrective action plan.

FWS Response
FWS regional officials concurred with the finding and recommendations.

OIG Comments
Based on the FWS response, additional information is needed in the corrective
action plan, including:

   •   The specific action(s) taken or planned to address the recommendations.
   •   Targeted completion date.
   •   Titles of officials responsible for implementing the actions taken or
       planned.
   •   Verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Division.

3. Unapproved Personnel Activity Reports — $3,576

To test payroll expenses charged to the Division’s Program grants, we reviewed
13 personnel activity reports used to support the payroll of 7 employees. We
found that:

   •   Two activity reports were not signed by an employee.
   •   Seven activity reports were not signed or initialed by a supervisor in the
       space provided or did not otherwise indicate supervisory review and
       approval.

The Division charged payroll expenses based on these activity reports to Grants
F-52-19, F-101-15, and F-101-16.

This situation is contrary to 2 CFR § 225, Appendix B, subsection 8.h(1), which
states that charges to Federal awards for salaries and wages must be based on
payrolls documented in accordance with generally accepted practices of the
governmental unit and approved by a responsible official of that unit.
Furthermore, 2 CFR § 225, Appendix B, subsection 8.h(5)(d), requires employees
to sign their personnel activity reports.

The Division did not have policies and procedures in place requiring
(1) employees to sign activity reports attesting to their accuracy or (2) supervisors
to sign or initial activity reports indicating approval. Therefore, we have no
assurance that the Division appropriately charged these payroll costs to the
Program grants and are questioning a total of $3,576 in unsupported costs
(Federal share), as indicated in the following table.

                                                                                    6
                      Payroll Costs Associated with
                       Unapproved Activity Reports
               Grant       Total Exceptions     Federal Share
              F-52-19              $241               $181
              F-101-15            1,631              1,223
              F-101-16            2,896              2,172
              Total             $4,768              $3,576

Recommendations

We recommend that FWS:

    1. Resolve the unsupported questioned costs totaling $3,576.

    2. Ensure the Division implements policies and procedures regarding
       Program grants that require (1) employees to sign activity reports
       attesting to their accuracy and (2) supervisors to sign or initial activity
       reports indicating approval.


Division Response
The Division did not state whether it concurred with the first recommendation but
agreed to identify a procedure to address the second recommendation in its
corrective action plan.

FWS Response
FWS regional officials concurred with the finding and recommendations.

OIG Comments
Based on the FWS response, additional information is needed in the corrective
action plan, including:

   •   The specific action(s) taken or planned to address the recommendations.
   •   Targeted completion date.
   •   Titles of officials responsible for implementing the actions taken or
       planned.
   •   Verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Division.

4. Out-of-Period Costs — $7,536

Under its constitution, the State of Alabama is generally immune from lawsuits
seeking monetary damages. The State legislature therefore established the Board
of Adjustment (the Board) as the only remedy for individuals and businesses
seeking payment for damages attributable to the State. In two instances,
contractors brought cases against the Department before the Board because the

                                                                                     7
Division had not paid for services rendered. The Board ruled in favor of the
contractors, but to pay restitution, the Division charged Program grants that were
not open at the time the services were provided. Specifically:

   •   The Division paid a contractor $6,750 (Federal share $5,063) on
       December 19, 2008, under Grant F-52-19. The contractor had supplied the
       Division with 10 portable toilets at public boat launches throughout
       Baldwin County. This service was rendered prior to the commencement of
       that grant on October 1, 2008.
   •   The Division paid a contractor $3,297 (Federal share $2,473) on October
       29, 2007, under Grant F-101-15. The contractor had supplied the Division
       with portable toilets during the renovation of its office in Dauphin Island.
       This service was rendered prior to the commencement of that grant on
       October 1, 2007.

The CFR, in 43 CFR § 12.63(a), states that a grantee may charge to the award
only costs resulting from obligations of the funding period unless carryover of
unobligated balances is permitted.

This condition arose because the Division approved payment based on the dates
of the Board’s judgments rather than the dates the services were obligated or
originally rendered. With regard to judgments of the Board, the Division did not
have policies and procedures in place to ensure that Program grants were charged
only for goods and services obligated during the grant period. As a result, we are
questioning costs totaling $7,536 (Federal share), as outlined in the following
table.
                       Ineligible Out-of-Period Costs
                Grant        Total Exceptions    Federal Share
               F-52-19             $6,750             $5,063
               F-101-15             3,297              2,473
               Total              $10,047             $7,536

Recommendations

We recommend that FWS:

    1. Resolve the ineligible questioned costs totaling $7,536.

    2. Ensure the Division implements policies and procedures regarding
       payments ordered by the Board of Adjustment so that Program grants
       are charged only for goods and services obligated during the grant
       period.




                                                                                     8
Division Response
The Division did not concur with the amount of unsupported questioned costs and
stated that a portion of these costs were part of ongoing activities to support
eligible Program facilities. The Division agreed, however, to identify a procedure
to address the second recommendation in its corrective action plan.

FWS Response
FWS regional officials concurred with the finding and recommendations.

OIG Comments
Based on the FWS response, additional information is needed in the corrective
action plan, including:

   •   The specific action(s) taken or planned to address the recommendations.
   •   Targeted completion date.
   •   Titles of officials responsible for implementing the actions taken or
       planned.
   •   Verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Division.

B. Excess Drawdowns of Federal Funds

Under the Program, FWS may reimburse States up to 75 percent of grant
expenditures, provided the States first expend their required matching share of
costs. The Division, however, drew down the full Federal share on Grant F-51-22,
even though it never incurred the requisite State share.

In 50 CFR § 80.12, Federal reimbursement under the Program grants is limited to
75 percent of eligible costs incurred in the completion of approved work.
Furthermore, 31 CFR § 205.11(b) requires States to limit the transfer of Federal
funds to the minimum required to meet actual and immediate cash needs.

This issue occurred because Division personnel used a spreadsheet programmed
with an incorrect formula to calculate the drawdown amounts for Grant F-51-22.
In addition, the Division did not have sufficient policies and procedures in place
to ensure that drawdowns of Program grant funds did not exceed 75 percent of
eligible costs incurred. Although the Division offset the excess drawdown prior to
the end of our audit by reducing the amount drawn on an SFY 2010 Program
grant, the State could receive excess reimbursements on future grants unless it
pursues additional corrective action.

Recommendation

We recommend that FWS ensure the Division develops and implements
policies and procedures to prevent excess drawdowns of Federal funds.



                                                                                 9
Division Response
The Division agreed to identify a procedure to address this recommendation in its
corrective action plan.

FWS Response
FWS regional officials concurred with the finding and recommendation.

OIG Comments
Based on the FWS response, additional information is needed in the corrective
action plan, including:

   •   The specific action(s) taken or planned to address the recommendation.
   •   Targeted completion date.
   •   Titles of officials responsible for implementing the actions taken or
       planned.
   •   Verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Division.




                                                                                10
Appendix 1
                           State of Alabama
           Department of Conservation and Natural Resources
                      Marine Resources Division
                Financial Summary of Review Coverage
             October 1, 2007, Through September 30, 2009

                                            Questioned Costs
 Grant       Grant       Claimed             (Federal Share)
Number      Amount        Costs
                                     Unsupported    Ineligible     Total
F-51-21      $150,000   $121,312           $4,762                   $4,762
F-51-22        150,000    137,889          44,968                   44,968
F-52-18        300,000     49,213          25,763                   25,763
F-52-19        300,000     41,444          14,522     $5,063        19,585
F-101-15     1,150,000    484,637          99,687      2,473       102,160
F-101-16     1,150,000    795,108         107,619                  107,619
Total      $3,200,000 $1,629,603        $297,321     $7,536      $304,857




                                                                           11
Appendix 2
                      State of Alabama
       Department of Conservation and Natural Resources
                  Marine Resources Division
                         Sites Visited

                          Headquarters
   Department of Conservation and Natural Resources, Montgomery
            Marine Resources Division, Dauphin Island

                            Boat Ramps
                          Billy Goat Hole
                            Boggy Point
                            Fort Morgan
                       Little Billy Goat Hole
                           May Day Park
                              The Pines

                              Other
                Claude Peteet Mariculture Center
           Unnamed Artificial Reef (30.082N, 87.3205W)




                                                                  12
Appendix 3
                            State of Alabama
            Department of Conservation and Natural Resources
                        Marine Resources Division
             Status of Audit Findings and Recommendations

Recommendations               Status                 Action Required
A.1.1, A.1.2, A.2.1,   FWS management           Based on the FWS response,
A.2.2, A.3.1, A.3.2,   concurs with the         additional information is
A.4.1, A.4.2, and B    recommendations, but     needed in the corrective
                       additional information   action plan, as listed in the
                       is needed as outlined    Findings and
                       in the "Action           Recommendations section
                       Required" column.        under OIG Comments. We
                                                will refer the
                                                recommendations not
                                                resolved and/or implemented
                                                at the end of 90 days (after
                                                November 10, 2010) to the
                                                Assistant Secretary for Policy,
                                                Management and Budget for
                                                resolution and/or tracking of
                                                implementation.




                                                                             13
                              Director of External Audits
                              U.S. Department of the Interior
                              Office of Inspector General
                              12030 Sunrise Valley Drive, Suite 230
                              Reston, VA 20191

       If you have any questions regarding this report, please contact the audit team leader, Mr.
Crist Chensvold, or me at 703–487–5345.

cc:   Regional Director, Region 4, U.S. Fish and Wildlife Service
Table of Contents
Introduction ............................................................................................................. 1
   Background ......................................................................................................... 1
   Objectives ............................................................................................................ 1
   Scope ................................................................................................................... 1
   Methodology ....................................................................................................... 1
   Prior Audit Coverage .......................................................................................... 2
Results of Audit ...................................................................................................... 3
   Audit Summary ................................................................................................... 3
   Findings and Recommendations ......................................................................... 3
Appendix 1 ............................................................................................................ 11
Appendix 2 ............................................................................................................ 12
Appendix 3 ............................................................................................................ 13
Introduction
Background
The Dingell-Johnson Sport Fish Restoration Act (the Act) 1 established the Sport
Fish Restoration Program. Under the Program, FWS provides grants to States to
restore, conserve, manage, and enhance their sport fish resources. The Act and
Federal regulations contain provisions and principles on eligible costs and allow
FWS to reimburse States up to 75 percent of the eligible costs incurred under the
grants. The Act also requires that fishing license revenues be used only for the
administration of the State’s fish and game agency. Finally, Federal regulations
and FWS guidance require States to account for any income they earn using grant
funds.

Objectives
Our audit objectives were to determine if the Division:

      •    Claimed the costs incurred under the Program grants in accordance with
           the Act and related regulations, FWS guidelines, and the grant agreements.
      •    Used State fishing license revenues solely for fish and wildlife program
           activities.
      •    Reported and used program income in accordance with Federal
           regulations.

Scope
Audit work included claims totaling approximately $1.6 million on the six grants
that were open during SFYs 2008 and 2009 (see Appendix 1). We report only on
those conditions that existed during this audit period. We performed our audit at
Department headquarters in Montgomery, AL, and Division headquarters in
Dauphin Island, AL, and visited six boat ramps, a mariculture center, and an
artificial reef (see Appendix 2). We performed this audit to supplement, not
replace, the audits required by the Single Audit Act Amendments of 1996 and by
Office of Management and Budget Circular A-133.

Methodology
We performed our audit in accordance with the “Government Auditing
Standards” issued by the Comptroller General of the United States. Those
standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We tested records and conducted
auditing procedures as necessary under the circumstances. We believe that the
evidence obtained from our tests and procedures provides a reasonable basis for
our findings and conclusions based on our audit objectives.

1
    16 U.S.C. § 777, as amended.


                                                                                   1
Our tests and procedures included:

   •   Examining the evidence that supports selected expenditures charged to the
       grants by the Division.
   •   Reviewing transactions related to purchases, direct costs, drawdowns of
       reimbursements, in-kind contributions, and program income.
   •   Interviewing Division employees to ensure that personnel costs charged to
       the grants were supportable.
   •   Conducting site visits to inspect equipment and other property.
   •   Determining whether the Division used fishing license revenues solely for
       administration of the Division.
   •   Determining whether the State passed required legislation assenting to the
       provisions of the Act.

We also identified the internal controls over transactions recorded in the labor and
license fee accounting systems and tested their operation and reliability. Based on
the results of initial assessments, we assigned a level of risk to these systems and
selected a judgmental sample of transactions recorded in these systems for testing.
We did not project the results of the tests to the total population of recorded
transactions or evaluate the economy, efficiency, or effectiveness of the
Division’s operations.

Prior Audit Coverage
On September 7, 2005, we issued “Final Audit Report on the U.S. Fish and
Wildlife Service Federal Assistance Grants Administered by the State of
Alabama, Department of Conservation and Natural Resources, Wildlife and
Freshwater Fisheries Division and Marine Resources Division, from October 1,
2002, through September 30, 2004” (No. R-GR-FWS-0002-2005). This report
contained no recommendations related to the Marine Resources Division.

We also reviewed Alabama’s Comprehensive Annual Financial Report and Single
Audit Report for SFY 2008. Neither of these reports contained any findings that
would directly impact the Program grants. In addition, we reviewed the Alabama
Department of Examiners of Public Accounts’ audit of the Department, issued on
November 27, 2009. This audit covered the Department’s compliance with
various State laws from October 1, 2006, to September 30, 2008. None of the
findings from this report directly related to the Marine Resources Division.




                                                                                  2
Results of Audit
Audit Summary
We found that the Division complied, in general, with applicable grant agreement
provisions and requirements of the Act, regulations, and FWS guidance. We
identified, however, several conditions that resulted in the findings listed below,
including questioned costs totaling $304,857. We discuss the findings in more
detail in the Findings and Recommendations section.

Questioned Costs. We questioned $304,857 in costs claimed on six grants
because the Division (1) inequitably charged shared expenses between the
Program grants and other funding sources, (2) claimed payroll expenses that did
not reflect the actual time worked by two employees, (3) charged payroll costs to
the grants that were not supported by signed timesheets, and (4) claimed expenses
that were obligated prior to the grant periods.

Excess Drawdowns of Federal Funds. The Division made drawdowns of
Federal funds even though it had not incurred sufficient State expenditures to
request reimbursement.

Findings and Recommendations
A. Questioned Costs — $304,857

1. Inequitably Allocated Expenses — $221,148

The Division received funding from a variety of sources in SFYs 2008 and 2009,
including license revenues, Program grants, and other Federal grants. Division
officials, however, charged transactions to the Program grants that also benefitted
non-Program projects, including expenses for electricity, telecommunications,
vehicle maintenance, building repairs, and sanitation services. Since we could not
determine the portion of those costs attributable to the Program grants, we
questioned all such expenses charged to Grants F-51-21 and F-51-22, for grant
coordination and administration; F-52-18 and F-52-19, for boating access
programs; and F-101-15 and F-101-16, for enhancement of recreational fishing.

According to the Code of Federal Regulations (CFR), in 2 CFR § 225, Appendix
A, subsections C.1.a, b, and j, allowable costs must be necessary and reasonable,
be allocable to the award only if they provide a benefit to the grant, and be
adequately supported.

This issue occurred because the Division did not have a methodology to equitably
charge shared expenses among all the projects that benefit from those costs. As a
result, we are questioning a total of $221,148 in costs (Federal share), as indicated
in the following table.


                                                                                    3
                       Inequitably Allocated Expenses
                Grant        Total Exceptions    Federal Share
               F-51-21             $6,349             $4,762
               F-51-22              5,733              4,300
               F-52-18             34,350             25,763
               F-52-19             19,121             14,341
               F-101-15           111,522             83,642
               F-101-16           117,787             88,340
               Total            $294,862           $221,148

Recommendations

We recommend that FWS:

    1. Resolve the unsupported questioned costs totaling $221,148.

    2. Ensure the Division develops a method to equitably charge shared
       expenses to all projects that benefit from those costs.


Division Response
The Division did not concur with the amount of unsupported questioned costs, but
provided neither a rationale for this position nor further documentation to support
any of the questioned costs. Nonetheless, the Division agreed to develop a method
to equitably allocate costs in its corrective action plan.

FWS Response
FWS regional officials concurred with the finding and recommendations.

OIG Comments
Based on the FWS response, additional information is needed in the corrective
action plan, including:

   •   The specific action(s) taken or planned to address the recommendations.
   •   Targeted completion date.
   •   Titles of officials responsible for implementing the actions taken or
       planned.
   •   Verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Division.

2. Unsupported Payroll Charges — $72,597

Division employees complete personnel activity reports (similar to timesheets)
showing the number of hours they work on various projects, and the Division
charges payroll expenses to the Program grants based on these reports. We
determined that an administrative support assistant and an accountant submitted

                                                                                  4
activity reports that did not reflect the actual time they worked on Program
activities. In SFYs 2008 and 2009, the administrative support assistant used a
predetermined percentage to distribute her work hours between Grants F-101-15
and F-101-16 and non-Program activities. Furthermore, the accountant charged all
of his time in SFY 2009 to Grant F-51-22, even though he also performed work
outside the scope of that grant.

The CFR outlines cost principles that States must follow when compensating
employees for work performed under Federal awards. According to 2 CFR § 225,
Appendix B, subsection 8.h(4), “where employees work on multiple activities or
cost objectives, a distribution of their salaries or wages will be supported by
personnel activity reports.” In addition, 2 CFR § 225, Appendix B, subsection
8.h(5)(e), notes that budget estimates or other distribution percentages determined
before the services are performed do not qualify as support for charges to Federal
awards.

This problem arose because Division management did not adequately review the
administrative support assistant’s and the accountant’s activity reports.
Furthermore, the Division did not have policies and procedures in place to ensure
that payroll expenses absorbed by Federal grants were based on the actual number
of hours employees worked on associated activities. Since the Department was
reimbursed for work unrelated to sport fish restoration, we are questioning a total
of $72,597 in unsupported costs (Federal share), as indicated in the following
table.
                          Unsupported Payroll Costs
                Grant        Total Exceptions    Federal Share
               F-51-22            $54,224            $40,668
               F-101-15            19,763             14,822
               F-101-16            22,809             17,107
               Total             $96,796            $72,597

Recommendations

We recommend that FWS:

    1. Resolve the unsupported questioned costs totaling $72,597.

    2. Require the Division to implement policies and procedures to ensure
       payroll expenses are supported by documentation of the actual activity
       of each employee.




                                                                                  5
Division Response
The Division did not concur with the amount of unsupported questioned costs, but
provided neither a rationale for this position nor further documentation to support
any of the questioned costs. Nonetheless, the Division agreed to identify a
procedure to address the second recommendation in its corrective action plan.

FWS Response
FWS regional officials concurred with the finding and recommendations.

OIG Comments
Based on the FWS response, additional information is needed in the corrective
action plan, including:

   •   The specific action(s) taken or planned to address the recommendations.
   •   Targeted completion date.
   •   Titles of officials responsible for implementing the actions taken or
       planned.
   •   Verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Division.

3. Unapproved Personnel Activity Reports — $3,576

To test payroll expenses charged to the Division’s Program grants, we reviewed
13 personnel activity reports used to support the payroll of 7 employees. We
found that:

   •   Two activity reports were not signed by an employee.
   •   Seven activity reports were not signed or initialed by a supervisor in the
       space provided or did not otherwise indicate supervisory review and
       approval.

The Division charged payroll expenses based on these activity reports to Grants
F-52-19, F-101-15, and F-101-16.

This situation is contrary to 2 CFR § 225, Appendix B, subsection 8.h(1), which
states that charges to Federal awards for salaries and wages must be based on
payrolls documented in accordance with generally accepted practices of the
governmental unit and approved by a responsible official of that unit.
Furthermore, 2 CFR § 225, Appendix B, subsection 8.h(5)(d), requires employees
to sign their personnel activity reports.

The Division did not have policies and procedures in place requiring
(1) employees to sign activity reports attesting to their accuracy or (2) supervisors
to sign or initial activity reports indicating approval. Therefore, we have no
assurance that the Division appropriately charged these payroll costs to the
Program grants and are questioning a total of $3,576 in unsupported costs
(Federal share), as indicated in the following table.

                                                                                    6
                      Payroll Costs Associated with
                       Unapproved Activity Reports
               Grant       Total Exceptions     Federal Share
              F-52-19              $241               $181
              F-101-15            1,631              1,223
              F-101-16            2,896              2,172
              Total             $4,768              $3,576

Recommendations

We recommend that FWS:

    1. Resolve the unsupported questioned costs totaling $3,576.

    2. Ensure the Division implements policies and procedures regarding
       Program grants that require (1) employees to sign activity reports
       attesting to their accuracy and (2) supervisors to sign or initial activity
       reports indicating approval.


Division Response
The Division did not state whether it concurred with the first recommendation but
agreed to identify a procedure to address the second recommendation in its
corrective action plan.

FWS Response
FWS regional officials concurred with the finding and recommendations.

OIG Comments
Based on the FWS response, additional information is needed in the corrective
action plan, including:

   •   The specific action(s) taken or planned to address the recommendations.
   •   Targeted completion date.
   •   Titles of officials responsible for implementing the actions taken or
       planned.
   •   Verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Division.

4. Out-of-Period Costs — $7,536

Under its constitution, the State of Alabama is generally immune from lawsuits
seeking monetary damages. The State legislature therefore established the Board
of Adjustment (the Board) as the only remedy for individuals and businesses
seeking payment for damages attributable to the State. In two instances,
contractors brought cases against the Department before the Board because the

                                                                                     7
Division had not paid for services rendered. The Board ruled in favor of the
contractors, but to pay restitution, the Division charged Program grants that were
not open at the time the services were provided. Specifically:

   •   The Division paid a contractor $6,750 (Federal share $5,063) on
       December 19, 2008, under Grant F-52-19. The contractor had supplied the
       Division with 10 portable toilets at public boat launches throughout
       Baldwin County. This service was rendered prior to the commencement of
       that grant on October 1, 2008.
   •   The Division paid a contractor $3,297 (Federal share $2,473) on October
       29, 2007, under Grant F-101-15. The contractor had supplied the Division
       with portable toilets during the renovation of its office in Dauphin Island.
       This service was rendered prior to the commencement of that grant on
       October 1, 2007.

The CFR, in 43 CFR § 12.63(a), states that a grantee may charge to the award
only costs resulting from obligations of the funding period unless carryover of
unobligated balances is permitted.

This condition arose because the Division approved payment based on the dates
of the Board’s judgments rather than the dates the services were obligated or
originally rendered. With regard to judgments of the Board, the Division did not
have policies and procedures in place to ensure that Program grants were charged
only for goods and services obligated during the grant period. As a result, we are
questioning costs totaling $7,536 (Federal share), as outlined in the following
table.
                       Ineligible Out-of-Period Costs
                Grant        Total Exceptions    Federal Share
               F-52-19             $6,750             $5,063
               F-101-15             3,297              2,473
               Total              $10,047             $7,536

Recommendations

We recommend that FWS:

    1. Resolve the ineligible questioned costs totaling $7,536.

    2. Ensure the Division implements policies and procedures regarding
       payments ordered by the Board of Adjustment so that Program grants
       are charged only for goods and services obligated during the grant
       period.




                                                                                     8
Division Response
The Division did not concur with the amount of unsupported questioned costs and
stated that a portion of these costs were part of ongoing activities to support
eligible Program facilities. The Division agreed, however, to identify a procedure
to address the second recommendation in its corrective action plan.

FWS Response
FWS regional officials concurred with the finding and recommendations.

OIG Comments
Based on the FWS response, additional information is needed in the corrective
action plan, including:

   •   The specific action(s) taken or planned to address the recommendations.
   •   Targeted completion date.
   •   Titles of officials responsible for implementing the actions taken or
       planned.
   •   Verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Division.

B. Excess Drawdowns of Federal Funds

Under the Program, FWS may reimburse States up to 75 percent of grant
expenditures, provided the States first expend their required matching share of
costs. The Division, however, drew down the full Federal share on Grant F-51-22,
even though it never incurred the requisite State share.

In 50 CFR § 80.12, Federal reimbursement under the Program grants is limited to
75 percent of eligible costs incurred in the completion of approved work.
Furthermore, 31 CFR § 205.11(b) requires States to limit the transfer of Federal
funds to the minimum required to meet actual and immediate cash needs.

This issue occurred because Division personnel used a spreadsheet programmed
with an incorrect formula to calculate the drawdown amounts for Grant F-51-22.
In addition, the Division did not have sufficient policies and procedures in place
to ensure that drawdowns of Program grant funds did not exceed 75 percent of
eligible costs incurred. Although the Division offset the excess drawdown prior to
the end of our audit by reducing the amount drawn on an SFY 2010 Program
grant, the State could receive excess reimbursements on future grants unless it
pursues additional corrective action.

Recommendation

We recommend that FWS ensure the Division develops and implements
policies and procedures to prevent excess drawdowns of Federal funds.



                                                                                 9
Division Response
The Division agreed to identify a procedure to address this recommendation in its
corrective action plan.

FWS Response
FWS regional officials concurred with the finding and recommendation.

OIG Comments
Based on the FWS response, additional information is needed in the corrective
action plan, including:

   •   The specific action(s) taken or planned to address the recommendation.
   •   Targeted completion date.
   •   Titles of officials responsible for implementing the actions taken or
       planned.
   •   Verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Division.




                                                                                10
Appendix 1
                           State of Alabama
           Department of Conservation and Natural Resources
                      Marine Resources Division
                Financial Summary of Review Coverage
             October 1, 2007, Through September 30, 2009

                                            Questioned Costs
 Grant       Grant       Claimed             (Federal Share)
Number      Amount        Costs
                                     Unsupported    Ineligible     Total
F-51-21      $150,000   $121,312           $4,762                   $4,762
F-51-22        150,000    137,889          44,968                   44,968
F-52-18        300,000     49,213          25,763                   25,763
F-52-19        300,000     41,444          14,522     $5,063        19,585
F-101-15     1,150,000    484,637          99,687      2,473       102,160
F-101-16     1,150,000    795,108         107,619                  107,619
Total      $3,200,000 $1,629,603        $297,321     $7,536      $304,857




                                                                           11
Appendix 2
                      State of Alabama
       Department of Conservation and Natural Resources
                  Marine Resources Division
                         Sites Visited

                          Headquarters
   Department of Conservation and Natural Resources, Montgomery
            Marine Resources Division, Dauphin Island

                            Boat Ramps
                          Billy Goat Hole
                            Boggy Point
                            Fort Morgan
                       Little Billy Goat Hole
                           May Day Park
                              The Pines

                              Other
                Claude Peteet Mariculture Center
           Unnamed Artificial Reef (30.082N, 87.3205W)




                                                                  12
Appendix 3
                            State of Alabama
            Department of Conservation and Natural Resources
                        Marine Resources Division
             Status of Audit Findings and Recommendations

Recommendations               Status                 Action Required
A.1.1, A.1.2, A.2.1,   FWS management           Based on the FWS response,
A.2.2, A.3.1, A.3.2,   concurs with the         additional information is
A.4.1, A.4.2, and B    recommendations, but     needed in the corrective
                       additional information   action plan, as listed in the
                       is needed as outlined    Findings and
                       in the "Action           Recommendations section
                       Required" column.        under OIG Comments. We
                                                will refer the
                                                recommendations not
                                                resolved and/or implemented
                                                at the end of 90 days (after
                                                November 10, 2010) to the
                                                Assistant Secretary for Policy,
                                                Management and Budget for
                                                resolution and/or tracking of
                                                implementation.




                                                                             13
      Report Fraud, Waste,
      and Mismanagement
             Fraud, waste, and mismanagement in
            government concern everyone: Office
           of Inspector General staff, Departmental
            employees, and the general public. We
               actively solicit allegations of any
           inefficient and wasteful practices, fraud,
                and mismanagement related to
            Departmental or Insular Area programs
                and operations. You can report
               allegations to us in several ways.



By Mail:            U.S. Department of the Interior
                    Office of Inspector General
                    Mail Stop 4428 MIB
                    1849 C Street, NW
                    Washington, D.C. 20240


By Phone:           24-Hour Toll Free                   800-424-5081
                    Washington Metro Area               703-487-5435


By Fax:             703-487-5402


By Internet:        www.doioig.gov
